No. 19-430
______________________________________________________

IN THE

Supreme Court of the United States Court
______________________________________________________
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., and MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,

Petitioners,

v.

MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, and MAYO CLINIC,
_____________________________

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT
_____________________________
BRIEF OF AMICUS CURIAE NEW YORK
INTELLECTUAL PROPERTY LAW ASSOCIATION IN
SUPPORT OF PETITIONER
_____________________________
Kathleen McCarthy
President, NYIPLA
KING & SPALDING LLP
1185 Avenue of the Americas
New York, NY 10036
Robert J. Rando

Board Member, NYIPLA

The Rando Law Firm PC
6800 Jericho Tpke., 120W
Syosset, NY 11791

Irena Royzman

Counsel of Record
Board Liaison, Committee
on Amicus Briefs, NYIPLA

KRAMER LEVIN NAFTALIS &
FRANKEL LLP
1177 Avenue of the Americas
New York, NY 10036
(212) 715-9100
iroyzman@kramerlevin.com

Robert M. Isackson

First Vice-President and
Board Liaison, Committee on
Amicus Briefs, NYIPLA
Leason Ellis LLP
1 Barker Avenue,
White Plains, NY 10601
Aron Fischer

Co-Chair, Committee on
Amicus Briefs, NYIPLA

Patterson Belknap Webb &
Tyler LLP
1133 Avenue of the Americas
New York NY 10036

Hannah Lee
Phuong Nguyen
KRAMER LEVIN NAFTALIS &
FRANKEL LLP
990 Marsh Road
Menlo Park, CA 94025
Ksenia Takhistova
7 Ellison Avenue
East Brunswick, NJ 08816
Jeffrey Lewis
Norton Rose Fulbright US
LLP
1301 Avenue of the Americas
New York, NY 10019
Scott Forman
Wolf Greenfield & Sacks,
P.C.
Chrysler Building
405 Lexington Ave.
New York, NY 10174

ATTORNEYS FOR AMICUS CURIAE

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICUS CURIAE............................. 1
SUMMARY OF THE ARGUMENT ............................ 2
ARGUMENT................................................................ 6
I.

The Intra-Circuit Split in the Federal
Circuit and Plea for Guidance .......................... 6

II.

The Role of Preemption in a Patent
Eligibility Analysis Is an Issue of
Exceptional Importance ................................... 8
A.

Preemption Concerns are Fundamental
to a Patent Eligibility Analysis ............. 8

B.

The Mayo Test for Patent Eligibility
Was Not Meant to Be Exclusive .......... 10

III. Whether Claims Must Be Considered as a
Whole in a Patent Eligibility Analysis Is
Also an Issue of Exceptional Importance ...... 13
IV. This Case is an Ideal Vehicle for the Court
to Resolve These Critical Issues .................... 17
A.

The Record in this Case Calls for the
Court’s Clarification............................. 18

B.

The Federal Circuit’s Application of
Mayo Has Caused a Crisis of Patent
Law and Medical Innovation ............... 18

ii
C.

Uncertainty Before the PTO Is Further
Reason Why this Court’s Intervention
Is Needed .............................................. 20

CONCLUSION .......................................................... 21

iii
TABLE OF AUTHORITIES

Page(s)

Cases

Alice Corp. v. CLS Bank Int’l,

573 U.S. 208 (2014) ...................................... passim

Ass’n for Molecular Pathology v. Myriad
Genetics, Inc.,

569 U.S. 576 (2013) .................................... 9, 15, 16

Bilski v. Kappos,

561 U.S. 593 (2010) ........................................ 10, 11

Diamond v. Diehr,

450 U.S. 175 (1981) .................................. 14, 15, 16

Mayo Collaborative Servs. v.
Prometheus Labs., Inc.,

566 U.S. 66 (2012) ........................................ passim

Constitutional, Statutory, and Regulatory Provisions
U.S. Const. art. I, § 8, cl. 8 .......................................... 6
35 U.S.C. § 101 .................................................. passim
Other Authorities
Tr. of Oral Arg. at 10-11, 28, Alice, 573
U.S. 208 (No. 13-298) ..................................... 13, 21

1
INTEREST OF AMICUS CURIAE1
The New York Intellectual Property Law
Association (“NYIPLA”) is a bar association of
approximately 1,000 attorneys who practice in the
area of patent, copyright, trademark and other
intellectual property (“IP”) law. 2 It is one of the
largest regional IP bar associations in the United
States. Its members include in-house counsel for
businesses and other organizations, and attorneys in
private practice who represent both IP owners and
their adversaries (many of whom are also IP owners).
Its members represent inventors, entrepreneurs,
businesses, universities, and industry and trade
associations. Many of its members are involved in
research, patenting, financing and other commercial
activity across industries.
The NYIPLA’s members and their clients
regularly participate in patent litigation on behalf of
both plaintiffs and defendants in federal court and in
proceedings before the United States Patent and
Trademark Office (“PTO”). They also actively engage
in licensing matters representing both patent
Pursuant to Sup. Ct. R. 37.6, the NYIPLA and its counsel
represent that they have authored the entirety of this brief,
and that no person other than the amicus curiae or its
counsel has made a monetary contribution to the
preparation or submission of this brief.
1

Pursuant to Sup. Ct. R. 37.2(a), both Petitioners and
Respondents have consented to the filing of any amicus curiae
brief in support of either or neither side’s position on this petition
for certiorari. Petitioners’ consent letter was filed in a docket
entry dated October 3, 2019. Respondents consented on October
15, 2019.

2

2
licensors and licensees. The NYIPLA thus brings an
informed perspective to the issues presented.
The NYIPLA’s members and their respective
clients have a strong interest in the issues in this case
because their day-to-day activities depend on the
consistently-applied and longstanding broad scope of
patent-eligible subject matter under the Patent Act.
Moreover, because of the vital and increasing
importance of biotech and medical innovation to
public health and the economy, the NYIPLA and its
members have a particularly strong interest in
ensuring that those principles continue to be
consistently and flexibly applied in those important
areas.3
SUMMARY OF THE ARGUMENT
This petition for a writ of certiorari presents
issues fundamental to patent eligibility that are of
exceptional importance to patent owners, to patent
challengers, and to innovation across all industries.
These issues are particularly important in the life
The arguments made in this brief were approved by an absolute
majority of the NYIPLA’s officers and members of its Board of
Directors, but do not necessarily reflect the views of a majority of
the members of the Association, or of the law or corporate firms
with which those members are associated. After reasonable
investigation, the NYIPLA believes that no officer or director or
member of the Amicus Briefs Committee who voted in favor of
filing this brief, nor any attorney associated with any such
officer, director or committee member in any law or corporate
firm, represents a party to this litigation. Some officers,
directors, committee members or associated attorneys may
represent entities, including other amici curiae, which have an
interest in other matters that may be affected by the outcome of
this litigation.
3

3
sciences and medical fields where inventions relate to
advancements in public health, including the
diagnosis and treatment of life-threatening, chronic,
and debilitating illnesses.
This case involves taking such a medical
innovation out of the realm of patent eligibility even
though all twelve active judges of the Federal Circuit
agreed that diagnostic tests, such as the one at issue
here, should be patent eligible under Section 101.
App. 96a (Moore, J., dissenting from denial of the
petition for rehearing en banc) (“This is not a case in
which the judges of this court disagree over whether
diagnostic claims, like those at issue in Athena,
should be eligible for patent protection.
They
should.”).
The inventors of Athena’s patent discovered
that 20% of patients who have myasthesnia gravis
(“MG”), a rare neurological disorder where patients
experience muscle weakness and symptoms including
drooping eyelids, double vision, and slurred speech,
did not produce acetylcholine receptor autoantibodies,
but, instead, produced autoantibodies to a membrane
protein called MuSK. “Prior to the[] discovery [by the
inventors], no disease had been associated with
MuSK.” App. 3a (citation omitted). Based on this
discovery, the inventors developed and patented
methods of diagnosing neurological disorders such as
MG by, inter alia, detecting autoantibodies that bind
to MuSK.
In a divided decision, the panel majority held
that the claimed diagnostic methods were patent
ineligible under this Court’s two-part test in Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 566

4
U.S. 66 (2012). Ignoring the claims as a whole, the
panel held that the claims were directed to a natural
phenomenon—the correlation between MG and the
MuSK autoantibodies—under step 1 of Mayo. The
majority then found that the additional steps of the
claims were routine and conventional apart from their
application to diagnosing MG, and that the claims
were therefore not patent eligible subject matter.
Significantly, the panel majority agreed that
the claims “involve both the discovery of a natural law
and certain concrete steps to observe its operation.”
App. 11a. Further, it found that the claims left “open
to the public other ways of interrogating the
correlation between MuSK autoantibodies and MuSKrelated disorders” without practicing the claims. App.
13a. Nevertheless, the Federal Circuit held that the
fact that the invention did not preempt other uses of
the natural law was not determinative of patent
eligibility. Id.
The Federal Circuit’s decision in Athena turned
this Court’s precedent on its head by ignoring the
analysis of preemption of other diagnostic methods in
the field. In doing so, it created a cloud of uncertainty
over the patent eligibility of inventions that have
limited scope and do not preempt other diagnostic
methods that might apply the same natural law using
different concrete steps.
The Federal Circuit
incorrectly interpreted the Mayo test as a bright-line,
exclusive test—regardless of whether there is
preemption. This Court has made clear that the Mayo
test is meant to assist courts in distinguishing patent
claims that preempt natural laws, natural
phenomena and abstract ideas from those that do not.
This case presents the Court with the needed

5
opportunity and a proper vehicle to clarify that the
Mayo test is not meant to be exclusively or rigidly
applied, and preemption is an important and
necessary consideration of patent eligibility.
The Federal Circuit also erred in interpreting

Mayo to require divorcing the natural phenomenon

from the other steps of the claim. This Court’s
precedents have long recognized that claims must be
considered as a whole and that a claim should not be
dissected into new and old elements in assessing
patent eligibility. As recognized by the Federal
Circuit, the consequences for medically important
diagnostic patents would be devastating if Mayo
required such dissection of claims into new and old
elements.
The Federal Circuit denied review of Athena’s
petition for rehearing en banc 7:5, with the majority
explaining that the Court’s direction in Mayo left the
Federal Circuit with no choice but to invalidate
medical diagnostic claims similar to those in Athena,
and asking for guidance from this Court. Multiple
opinions from Federal Circuit judges reflect the
pressing need for this Court’s guidance in order to
avoid the anomalous and likely unintended results
that the majority of the Federal Circuit believes are
required by Mayo. The panel majority emphasized
that Mayo “[left] no room for a different outcome
here,” although the majority agreed with Judge
Newman’s dissenting opinion that “the public interest
is poorly served by adding disincentive to the
development of new diagnostic methods.” App. 14a
n.4. Further highlighting the need for the Court’s
intervention are “[t]he multiple concurring and
dissenting opinions regarding the denial of en banc

6
rehearing in this case [which] are illustrative of how
fraught the issue of § 101 eligibility, especially as
applied to medical diagnostics patents, is.” App. 62a
(Hughes, J., concurring in the denial of the petition for
rehearing en banc).
This Court’s intervention is crucial to clarify
the standard for patent eligibility “to promote the
Progress of Science and the useful Arts.” U.S. Const.
art. I, § 8, cl. 8.
ARGUMENT
I.

The Intra-Circuit Split in the Federal Circuit
and Plea for Guidance

The denial of rehearing en banc in this case
demonstrates that the Federal Circuit judges are split
7 to 5 on whether diagnostic patents, such as the one
at issue in Athena, are patent eligible under Mayo.
The majority of the judges (Judges Lourie, Chen, Dyk,
Reyna, Taranto, Hughes, and Chief Judge Prost)
supported denial of Athena’s petition, concluding
under protest that the court had no choice but to hold
the claims patent ineligible because of this Court’s
broad language in Mayo, even though they agreed
with the dissenting judges that this was a disservice
to public health and innovation. In four opinions
denying en banc review, these seven Federal Circuit
judges explain the need for the Court’s intervention.
Judges Moore, Newman, O’Malley, Wallach
and Stoll dissented from the denial of en banc review,
explaining that the Federal Circuit incorrectly has
“turned Mayo into a per se rule that diagnostic kits
and techniques are [patent] ineligible.” App. 99a
(Moore, J.). In four opinions, these judges of the

7
Federal Circuit stress the need for the Court’s
intervention
given
the
majority’s
sweeping
interpretation of Mayo, leaving diagnostic patents out
in the cold and chilling innovation of new diagnostic
methods needed by the afflicted public.
Judge Moore, joined by Judges O’Malley,
Wallach, and Stoll, stated that the majority’s refusal
to reconsider their interpretation of Mayo leaves “no
more options at this court for diagnostic patents.”
App. 118a. Judge Moore explained that “[w]hile we
believe that such claims should be eligible for patent
protection, the majority of this court has definitively
concluded that the Supreme Court prevents us from
so holding.” App. 119a. Accordingly, she warned that
the “only hope [for diagnostic patents] lies with the
Supreme Court or Congress” and “hope[s] that they
recognize the importance of these technologies, the
benefits to society, and the market incentives for
American business.” Id.
Judge Lourie, joined by Judges Reyna and
Chen, stated that the court could “accomplish little” in
rehearing Athena as the Federal Circuit is “bound by
the Supreme Court’s decision in Mayo.” App. 58a.
Judge Hughes, joined by Chief Judge Prost and Judge
Taranto, stated that while the “bottom line for
diagnostics patents is problematic,” this is “not a
problem that the [Federal Circuit] can solve” as an
inferior court “bound by the Supreme Court.” App.
62a. Judge Hughes stated that “further explication of
eligibility standards in the area of diagnostic patents”
would be “welcome” as “[s]uch standards could permit
patenting of essential life-saving inventions based on
natural laws.” App. 63a.

8
Similarly, Judge Dyk, joined by Judges Hughes
and Chen, explained that “the development of new
diagnostic methods is often based on researching
complex biological systems. The inventive concepts in
this area may lie primarily in the application of a
natural law.” App. 71a. Judge Dyk stressed that
“patent eligibility should leave room for sufficiently
specific diagnostic patents. But it is the Supreme
Court, not this court, that must reconsider the
breadth of Mayo.” App. 68a.
The 7:5 intra-circuit split in the Federal Circuit
on whether diagnostic patents are patent eligible
under Mayo, the lack of any meaningful recourse with
respect to diagnostic patents in view of the majority’s
interpretation of this Court’s decision in Mayo, and
the Federal Circuit’s unanimous plea for guidance
from the Court, require this Court’s intervention.
II.

The Role of Preemption in a Patent Eligibility
Analysis Is an Issue of Exceptional Importance
A.

Preemption Concerns are Fundamental
to a Patent Eligibility Analysis

This Court should grant the petition for a writ
of certiorari to clarify that Mayo does not trump a
preemption analysis and that inventions posing no
preemption concerns remain patent eligible under
Mayo.
This Court has long recognized that
preemption concerns are central to a patent eligibility
analysis. Section 101 sets out four broad statutory
categories of inventions or discoveries that are eligible
for protection. These statutory categories are subject
to an “implicit exception: Laws of nature, natural
phenomena, and abstract ideas are not patentable.”
Alice Corp. v. CLS Bank Int’l, 573 U.S. 208, 216 (2014)

9
(quoting Ass’n for Molecular Pathology v. Myriad
Genetics, Inc., 569 U.S. 576, 589 (2013)). As this
Court has explained, the “concern that drives this
exclusionary principle [is] one of pre-emption.” Alice,
573 U.S. at 216. Laws of nature (like gravity), natural
phenomena (like the DNA sitting in our
chromosomes), and abstract ideas (like mathematical
algorithms) are the “building blocks of human
ingenuity.” Id. (citation omitted). “‘[M]onopolization
of those tools through the grant of a patent might tend
to impede innovation more than it would tend to
promote it,’ thereby thwarting the primary object of
the patent laws.” Id. (quoting Mayo, 566 U.S. at 71).
This Court has “‘repeatedly emphasized this . . .
concern that patent law not inhibit further discovery
by improperly tying up the future use of’ these
building blocks of human ingenuity.” Id. (quoting
Mayo, 566 U.S. at 85). As a result, this Court’s Section
101 precedent “warn[s] . . . against upholding patents
that claim processes that too broadly preempt the use
of a natural law.” Mayo, 566 U.S. at 72 (citation
omitted).
At the same time, this Court has long
recognized that “all inventions at some level embody,
use, reflect, rest upon, or apply laws of nature, natural
phenomena, or abstract ideas.” Mayo, 566 U.S. at 71.
It is therefore necessary to “distinguish between
patents that claim the ‘buildin[g] block[s]’ of human
ingenuity and those that integrate the building blocks
into something more.” Alice, 573 U.S. at 217 (quoting
Mayo, 566 U.S. at 89). The former would “risk
disproportionately tying up the use of the underlying
natural laws, inhibiting their use in the making of
further discoveries.” Mayo, 566 U.S. at 73. “The latter
pose no comparable risk of preemption, and therefore

10
remain eligible for the monopoly granted under [the]
patent laws.” Alice, 573 U.S. at 217.
B.

The Mayo Test for Patent Eligibility Was
Not Meant to Be Exclusive

In Mayo, this Court set forth a two-part test “for
distinguishing patents that claim laws of nature,
natural phenomena, and abstract ideas from those
that claim patent-eligible applications of those
concepts.” Id. (citing Mayo, 566 U.S. at 77-78). The
Mayo test asks (1) whether a patent’s claims are
directed to one of the patent-ineligible concepts, and if
so, (2) whether the elements of those claims—both
individually and as an “ordered combination”—
”transform the nature of the claim[s]” into a patenteligible application. Mayo, 566 U.S. at 77-79.
This Court previously rejected the notion of an
exclusive test for patent eligibility, see Bilski v.
Kappos, 561 U.S. 593 (2010). The Federal Circuit,
however, has interpreted Mayo as the definitive test
for patent eligibility to be rigidly applied to all future
cases to the exclusion of any other inquiry. In this
case, “the inventors did not patent their scientific
discovery of MuSK autoantibodies” or the correlation
between those antibodies and the neurological
condition, MG. App. 24a. “Rather, they applied this
discovery to create a new method of diagnosis, for a
previously undiagnosable neurological condition.” Id.
In invalidating a patent that did not claim a patentineligible concept itself but the practical application of
a discovery, the Federal Circuit held that
“[p]reemption is sufficient to render a claim ineligible
under § 101, but it is not necessary.” App. 13a. In
other words, according to the panel majority,
preemption demonstrates that subject matter is not

11
patent eligible but the absence of preemption, as here,
is of no consequence to patent eligibility. This is error.
Preemption is the hallmark of patent
ineligibility under Section 101. Mayo and Alice
discuss preemption at length, since it is the basis for
the judicial exceptions to patentability and the driving
force behind these exceptions. Alice, 573 U.S. at 216.
This Court also made clear that upholding the patent
in Mayo “would risk disproportionately tying up the
use of the underlying natural laws, inhibiting their
use in the making of further discoveries.” 566 U.S. at
73. Similarly, in Alice, this Court stressed that its
patent eligibility conclusion was in “accord[] with the
pre-emption concern that undergirds [this Court’s] §
101 jurisprudence.” 573 U.S. at 223. The Federal
Circuit’s conclusion that subject matter is patent
ineligible under Section 101—even when there is no
risk of preemption—is at odds with this Court’s
precedent.
The Federal Circuit’s wooden application of

Mayo (much like the machine-or-transformation test,

Freeman-Walter-Abele and technological arts tests
that had been applied in the past) ignores the goal of
the inquiry—to determine whether the claim
preempts the building-block, patent-ineligible concept
in question. This Court rejected this type of rigid
analysis of its machine-or-transformation test in
Bilski, and such an approach also is incorrect here.
561 U.S. at 604. Just as in Bilski, here the Federal
Circuit has elevated the test in Mayo from a “useful
and important clue” and “investigative tool” to the
“exclusive test” or “sole test for deciding whether an
invention is” patent eligible. Id. In doing so, the
Federal Circuit untethered the Mayo test from the

12
analysis of preemption, despite the fact that the
purpose of the overall test is to assist courts in
distinguishing patents that claim laws of nature,
natural phenomena and abstract ideas from those
that do not improperly monopolize practical
applications of such concepts. Alice, 573 U.S. at 217.
Indeed, here, the Federal Circuit denied patent
eligibility in the absence of any concern that a law of
nature or natural phenomenon was being improperly
monopolized. The panel majority acknowledged that
the claims at issue “involve both the discovery of a
natural law and certain concrete steps to observe its
operation” (App. 11a), agreeing that claim 9 “leaves
open to the public other ways of interrogating the
correlation between MuSK autoantibodies and MuSKrelated disorders without practicing the claim’s
concrete steps.” App. 13a; see also App. 116a (Moore,
J.) (“The claims do not ‘broadly preempt the use of a
natural law,’ and do not prevent any scientist from
using the natural law in association with other
common processes.”); App. 137a (Stoll, J.) (“Certain
diagnostic claims, such as the ones at issue in this
case, are so narrowly tailored that preemption is not
a reasonable concern.”). But the panel majority held
that the absence of preemption was not enough to
“disturb” its conclusion under step one of the Mayo
framework that the “claims here are directed to a
natural law.” App. 13a.
The absence of preemption concerns in this
case, unlike in Mayo and Alice, should have led to the
conclusion that the claimed diagnostic method was
patent eligible. The panel majority, however, took the
position that preemption only works one way to signal
patent ineligible subject matter, but that the lack of

13
preemption does not demonstrate patent eligibility.
Id. The panel majority’s position is contrary to this
Court’s precedent and is wrong as a matter of law.
This Court’s intervention at this juncture to clarify
that absence of preemption is a reliable and conclusive
indicator of patent eligibility is critically important.
The Federal Circuit’s errors also stem from the
misapprehension of Mayo as the exclusive test for
patent eligibility.
This Court has repeatedly
cautioned against rigid application of generalized
tests as exclusive ones. Justice Breyer, who authored
Mayo, acknowledged that the facts of Mayo made it
“an obvious case” and therefore could only “sketch an
outer shell” of a test that would be developed in future
cases since it was hard to “figure out how much . . . to
go beyond . . . an obvious case.” Tr. of Oral Arg. at 1011, 28, Alice, 573 U.S. 208 (No. 13-298) (Breyer, J.).
Indeed, this Court described the patent claims in
Mayo as nothing more than “a drafting effort designed
to monopolize the law of nature itself.” Mayo, 566 U.S.
at 77. This Court’s guidance is needed to clarify that
the Mayo test is a general tool, but it cannot be the
exclusive test for patent eligibility and should not be
rigidly applied in all circumstances.
III.

Whether Claims Must Be Considered as a
Whole in a Patent Eligibility Analysis Is Also
an Issue of Exceptional Importance

This Court should also grant the petition for a
writ of certiorari to clarify that claims must be
considered as a whole in a patent eligibility analysis.
This Court has warned that “too broad an
interpretation of th[e] exclusionary principle could
eviscerate patent law.” Id. at 71. The panel majority
in Athena dissected the claims into their individual

14
elements without considering the claimed invention
as a whole, which resulted in denying patent
eligibility to a novel diagnostic method.
This Court has long held that “claims must be
considered as a whole” in a patent eligibility analysis.
Diamond v. Diehr, 450 U.S. 175, 188 (1981). Indeed,
it is “inappropriate to dissect the claims into old and
new elements.” Id. This Court emphasized that
“[t]his is particularly true in a process claim because
a new combination of steps in a process may be
patentable even though all the constituents of the
combination were well known and in common use
before the combination was made.” Id. Mayo neither
addressed nor changed this well-settled rule. In
Mayo, this Court reiterated that the steps of a claimed
method must be considered as an “ordered
combination.” 566 U.S. at 79 (citing Diehr, 450 U.S.
at 188); see also Alice, 573 U.S. at 218 n.3 (“Because
the approach we made explicit in Mayo considers all
claim elements, both individually and in combination,
it is consistent with the general rule that patent
claims ‘must be considered as a whole.’” (quoting
Diehr, 450 U.S. at 188)) (emphasis added).
Although Mayo did not change the “general rule
that patent claims ‘must be considered as a whole’”
(Alice, 573 U.S. at 218 n.3), the majority of the Federal
Circuit does not interpret or apply Mayo in this way
(and the PTO and district courts have necessarily
followed suit). This resulted in turning this Court’s
general and well-established rule on its head, and
casting a cloud over an entire field of inventions that
would otherwise unquestionably have been considered
patent eligible under this Court’s precedent.

15
This Court’s guidance is essential to clarify that
claims must be considered as a whole in a patent
eligibility analysis and that Mayo does not require
dissecting the claim into separate elements. As this
Court previously explained, divorcing the natural
principle from the other claim elements would, “if
carried to its extreme, make all inventions
unpatentable because all inventions can be reduced to
underlying principles of nature which, once known,
make their implementation obvious.” Diehr, 450 U.S.
at 189 n.12.
There is no reason why a new way of diagnosing
a medical condition should not be patent eligible
under this Court’s precedent. Indeed, Mayo reiterates
the well-established maxim that a “new way of using
an existing drug” is patent eligible, 566 U.S. at 87.
Similarly, this Court stated that a party that
discovers a natural phenomenon is “in an excellent
position to claim applications of that knowledge.”
Myriad, 569 U.S. at 596 (citation omitted).
Indeed, Judge Newman in dissenting from the
panel majority emphasized that “[i]t is incorrect to
separate the claim steps into whether a step is
performed by conventional techniques, and then to
remove those steps from the claims . . . for the purpose
of Section 101 analysis.” App. 32a. Judge Newman
explained that “[c]laims 7-9 recite a combination of
technologic steps, all of which are limitations to the
claims and cannot be disregarded whether for
patentability or patent-eligibility or infringement.”
Id., App. 34a; see also App. 125a (“There is no support
in the Court’s precedent for our abandonment of the
invention-as-a-whole in determining eligibility under
section 101.”).
Judge Moore, joined by Judges

16
Wallach, Stoll, and O’Malley, also stressed that “[o]ur
decision to entirely disregard the discovery
incorporated in the claims is a misapplication of the
statute.” App. 117a.
Judge Chen, on the other hand, just as the
panel majority, interpreted Mayo to require
separating the discovery of the natural law from the
other elements of the claims. But he explained that
the Federal Circuit’s interpretation is “in tension on
its face with Diehr, which was equally clear in
requiring that a patent claim be considered as a
whole, without putting aside any natural law or
otherwise dissecting a claim into new versus old
elements.” App. 88a. Judge Chen recognized that
under Diehr, “which does not divide the claim into
new versus old elements, Athena’s claims,
particularly claims 7 and 9, likely would have been
found to be directed to a patent-eligible process
comprising a set of technical, transformative steps to
test a patient for a particular medical condition.” App.
78a-79a. He also explained that “nothing in Mayo
suggests that it sought to repudiate anything in
Diehr; it instead suggests that it sought to maintain
continuity with the Court’s prior cases in this area.”
Id., App. 88a.
Further, multiple Federal Circuit judges
recognized that the Mayo test, as read by the majority
of the Federal Circuit, is also in tension with this
Court’s decision in Myriad. For example, Judge Dyk
stated that “Myriad [] recognized that an inventive
concept can sometimes come from the discovery of an
unknown natural phenomenon and its application for
a diagnostic purpose,” which is “in tension with
Mayo.” App. 70a. Similarly, Judge Chen explained

17
that “[Myriad] could be read as potentially
maintaining an open door for diagnostic claims such
as Athena’s, because they may be regarded as
applications of knowledge of discovered natural laws.”
App. 89a. Both, however, concluded that they saw no
recourse without this Court’s intervention due to “the
direction of the Supreme Court” in Mayo. App. 95a;
App. 68a (Dyk, J.) (“it is the Supreme Court, not this
Court that must reconsider the breadth of Mayo.”).
IV.

This Case is an Ideal Vehicle for the Court to
Resolve These Critical Issues

The issues presented in this petition for a writ
for certiorari are critically important to patent
owners, to patent challengers, and to innovation
across all industries since “[a]t some level, all
inventions . . . embody, use, reflect, rest upon or apply
laws of nature, natural phenomena, or abstract ideas.”
Alice, 573 U.S. at 217 (quoting Mayo, 566 U.S. at
71)(internal quotation marks omitted). The proper
role of preemption in a patent eligibility analysis and
whether claims must be considered as a whole in that
analysis are matters that impact innumerable patents
and directly impact innovation, particularly in the
areas of diagnosis and treatment of debilitating and
critical illnesses.
These issues are squarely presented in this case
and have been fully developed through extensive
briefing of the parties and numerous amici, as well as
multiple judicial opinions at the panel and rehearing
stage requesting this Court’s guidance. The divided
panel opinion and 7-5 split on en banc review,
demonstrate the intra-circuit split on how to interpret
and apply the Mayo framework, and the need for
review by the Court to clarify these critical issues.

18
A.

The Record in this Case Calls for the
Court’s Clarification

The record in this case allows the issues to be
presented precisely. It is undisputed that there is no
preemption on the facts of this case and that the
Athena patent does not monopolize all uses of a
natural phenomenon. The precise question before the
Court is then whether an otherwise meritorious
invention can be denied patent eligibility in the
absence of preemption. The panel agreed that the
claim at issue here did not preempt any natural law
and “leaves open to the public other ways of
interrogating the correlation between MuSK
autoantibodies and MuSK-related disorders without
practicing the claim’s concrete steps.” App. 13a. The
fact that the claim is to a concrete application of a new
discovery also makes this case uniquely suited for the
Court to clarify that Mayo requires consideration of
the claims as a whole and that claims cannot be
dissected into old and new elements in assessing
patent eligibility. As the panel noted, “[p]rior to the[]
discovery [by the named inventors], no disease had
been associated with MuSK.” App. 3a. Indeed, Judge
Dyk, joined by Judges Hughes and Chen, pointed out
that since “the claims here recite specific applications
of the newly discovered law of nature with proven
utility, this case could provide the Supreme Court
with the opportunity to refine the Mayo framework as
to diagnostic patents.” App. 77a.
B.

The Federal Circuit’s Application of
Mayo Has Caused a Crisis of Patent Law
and Medical Innovation

The issues are manifestly important and well
elaborated as reflected by the participation of

19
numerous amici at the rehearing stage. Both the
panel majority and the dissent agreed that “the public
interest is poorly served by adding disincentive to the
development of new diagnostic methods.” App. 14a
n.4; App. 34a. The majority further stated that
“providing patent protection to novel and non-obvious
diagnostic methods would promote the progress of
science and useful arts.” App. 14a n.4. A rigid
application of Mayo, i.e., one that denies patent
eligibility in the absence of preemption concerns and
fails to consider the claims as a whole, impedes
precisely such valuable and significant applications of
new discoveries.
The Federal Circuit judges, including those
that concluded that they were bound to apply Mayo as
the panel did, all expressed concern about the
detrimental consequences of the decision to public
health and scientific innovation. For example, Judge
Chen stated that “[n]ew methods for diagnosing
medical conditions” are “the kind of subject matter the
patent system is designed for [in order] to encourage
the risky, expensive, unpredictable, technical
research and development that people would not
otherwise pursue,” and “should be patentable subject
matter in a well-functioning patent system.” App.
94a-95a. Judge Moore, joined by Judges O’Malley,
Wallach and Stoll, noted that diagnostic techniques
guide nearly 66% of clinical decisions, cost up to $100
million to develop over a period of approximately 10
years, and “are precisely the type of innovation the
patent system exists to promote.” App. 102a. Judge
Moore further explained that: “Without patent
protection to recoup the enormous R&D cost,
investment in diagnostic medicine will decline. To put
it simply, this is bad. It is bad for the health of the

20
American people and the health of the American
economy.” App. 109a. Similarly, Judge Stoll stated
that “a wholesale bar on patent eligibility for
diagnostic claims [as a result of the majority’s
interpretation of Mayo] has far-reaching and longranging implications for the development of lifesaving diagnostic methods.” App. 136a. Judge Stoll
emphasized that the “eligibility of life-saving
inventions is not only one of the most important issues
of patent law, but of human health.” Id. And, as
Judge Newman put it, “[t]he loser is the afflicted
public, for diagnostic methods that are not developed
benefit no one.” App. 36a-37a.
Further, Congressional efforts to address these
critical issues have failed. It is for this Court to
intervene and clarify its precedent, foreclosing the
Federal Circuit’s rigid and erroneous application of
Mayo.
C.

Uncertainty Before the PTO Is Further
Reason Why this Court’s Intervention Is
Needed

The NYIPLA’s members also have observed
first-hand in advising and representing their clients
in patent matters before the PTO the increased
difficulty in predicting whether inventions will be
found patentable despite the absence of preemption
concerns and when the claims were not directed to a
law of nature. Following the Federal Circuit’s lead,
the PTO’s guidance restates the two-part test of Mayo
as an exclusive test. As Judge Chen notes, the Mayo
framework is “considerably harder to apply than the
Diehr framework” and “a very difficult thing to
explain to 8,000 patent examiners.” App. 87a-88a.
Judge Chen explains that “the process of determining

21
what the claim is ‘really about’ when the claim is
viewed in pieces, rather than as a whole, can be highly
subjective and impressionistic.” App. 88a. This is yet
further reason that it is critically important for this
Court to clarify that Mayo did not repudiate Diehr and
that the Mayo test is only a helpful starting point, “a
sketch [of] an outer shell,” rather than an exclusive
and fully developed framework for patent eligibility.
Tr. of Oral Arg. at 28, Alice, 573 U.S. 208 (No. 13-298)
(Breyer, J.).
***
Thus, this case provides the Court an ideal
vehicle for clarifying that Mayo is not an exclusive or
rigid test, that claims must be considered as a whole,
and that claims that do not preempt laws of nature
are patent eligible under Section 101. Doing so would
remove the cloud hanging over patent-eligible subject
matter in the area of medical diagnostics, as well as
all other industries.
CONCLUSION
This Court should grant the petition for a writ
of certiorari on the Question Presented.
October 18, 2019
Kathleen McCarthy
President, NYIPLA
KING & SPALDING LLP
1185 Avenue of the
Americas
New York, NY 10036

Respectfully submitted,
Irena Royzman

Counsel of Record
Board Liaison, Committee
on Amicus Briefs, NYIPLA

KRAMER LEVIN NAFTALIS &
FRANKEL LLP
1177 Avenue of the
Americas

22
Robert J. Rando
Board Member, NYIPLA
The Rando Law Firm
PC
6800 Jericho Tpke.,
120W
Syosset, NY 11791
Robert M. Isackson

First Vice-President and
Board Liaison,
Committee on Amicus
Briefs, NYIPLA
Leason Ellis LLP
1 Barker Avenue,
White Plains, NY 10601

New York, NY 10036
(212) 715-9100
iroyzman@kramerlevin.com
Hannah Lee
Phuong Nguyen
KRAMER LEVIN NAFTALIS &
FRANKEL LLP
990 Marsh Road
Menlo Park, CA 94025
Ksenia Takhistova
7 Ellison Avenue
East Brunswick, NJ 08816

Jeffrey Lewis
Norton Rose Fulbright US
Aron Fischer
LLP
Co-Chair, Committee on 1301 Avenue of the
Amicus Briefs, NYIPLA Americas
Patterson Belknap Webb New York, NY 10019
& Tyler LLP
1133 Avenue of the
Scott Forman
Americas
Wolf Greenfield & Sacks,
New York NY 10036
P.C.
Chrysler Building
405 Lexington Ave.
New York, NY 10174

Attorneys for Amicus Curiae
New York Intellectual Property Law Association

